Department of Health and Human Sefices

       OFFICE OF
  INSPECTOR GENERAL




  EMERGENCY SHELTERS FOR
     HOMELESS FAMILIES




            OCTOBER   1992
                      OFFICE OF INSPE(XOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating componen~. the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Kansas City Regional Office under the direction of Don
McLaughlin, Regional Inspector General, and Jim Wolf, Deputy Regional Inspector General.
Project staffi

Kansas City                                          Headquarters

Dennis Tharp, Project Leader                         Susan HardWick,Program Specialist
Tim Dold, Team Leader



To obtain a copy of this report, call the Kansas City Regional Office at (816) 426-3697.
I
    Department of Health and Human Services

            OFFICE OF
       INSPECTOR GENERAL




       EMERGENCY SHELTERS FOR
          HOMELESS FAMILIES
              EXECUTIVE                          SUMMARY
PURPOSE

To assess the quality of living conditions and services in emergency shelters for
homeless families.

BACKGROUND

The Assistant Secretary for Planning and Evaluation, representing the Secretary of the
Department of Health and Human Semites as a member of The Interagency Council
on the Homeless, requested us to perform this inspection in order to better
understand conditions in shelters which serve homeless famiIies.

We visited 24 homeless family shelters in eight cities of varying sizes and locations.
We intetiewed shelter directors and caseworkers, homeless program coordinators,
and 172 homeless families.

FINDINGS

Shelter Environment

Most shelters were clean, but sanitation was a problem in some.

Shelter security and safety in the neighborhood was not a substantial problem with
most residents. However, 20 percent of families said that they were concerned for
their safety.

Shelter SeMces

Shelters provided or made arrangements     for a variety of services for their residents,

Seventy percent of families were participating in workshops/classes to help them
towards self-sufficiency. Case management was provided in 60 percent of the shelters
reviewed. Children’s education was not greatly disrupted. Most children were
enrolled in local public schools within 48 hours after arrival at the shelter. Emergency
health care was available to all shelter residents and “Health Care for the Homeless”
programs were operational in 7 of the 8 cities we visited. Some shelters had referral
systems with child protective services bureaus.

Only 25 percent of the shelters had access to a day care for its residents.




                                             i
Income and Benefits

Most homeless families were already connected with public assistance service before
they arrived at the shelters. Sixty-nine percent of families were on Aid to Families
with Dependent Children and 77 percent were receiving Food Stamps.

Factors A&ding    Hopelessness

Of the factors contributing to a family’s hopelessness, “problems with family” or
“problems with relatives with whom they resided” was cited as the most frequent
predisposing factor. Other contributing causes, often in combination with “problems
with family,” include eviction, domestic violence, and job loss.

Shelter directors in 25 percent of the shelters said that most of their residents were
drug abusers.

Availability of and Access to Shelters

Seven of 8 city representatives of homeless coalitions in the 8 cities felt there were not
enough homeless family shelters in their cities. Two-third’s of the shelter directors
concurred with this finding.

Most shelters had rules which the families must agree to before being allowed
admittance to the shelters. Typically, these involved prohibitions against drugs and
violence, curfews, and requirements to help with chores.

Two-thirds of the shelters deny admittance for older males. This causes family
separations in some cases.

Federal dollars accounted for 18 percent of funding sources for the sampled shelters.
Most shelters were funded through donations and other sources.




Overall, the shelters we visited are effectively providing important services to homeless
families. However, some deficiencies need attention. Our results suggest that State
and local officials, shelter operators, homeless program coordinators, and others
wishing to improve shelters for homeless families should focus on:

  o    ensuring cleanliness and security where they are lacking

  o
   arranging for day care to be provided to families w“th children who are
       attempting to find work while living in a shelte~




                                            ii
  o	   developing policies and effective practices to prevent family separations due to
       restricting admissions of older males.

At the federal level, the Interagency Council on Homeless could be instrumental in
providing information and technical assistance to those planning and running sheIters
for homeless families in the areas we have identified. The Council could also promote
research on the topic of family separation in shelters.




                                           . ..
                                           111
                     TABLE                 OF CONTENTS

EXECUTIVE        SUMMARY


INTRODUCTION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. S”” ““””””””””””                                          “ 1


                                                                                                                                                      3

FINDINGS       ................................ ....                     �        �   �   �   �   .   �   �   �   �   �   .   �   “   “   “   “   “




   Shelter Environment

   Shelter Services

   Income and Benefits

   Factors Affecting Hopelessness

   Availability ofand Access to Shelters


mmm~AmONS                       . . . . . . . . . . ...-.......--===             .=-. ==.. =.. =.. ”-””9

APPENDICES

 A Tabular Present.ations ofShelterMe                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l

     Observations of Living Conditions
     Homeless Families’ Perspectives
     Shelter Directors’ Perspectives
     Demographicsof Homeless Families
     Sources of Funding

 B.
 Descriptions of Shelters Visited . . . . . . . . . . . . . . . . . . . . . . . . . ..-.                                  ”””” .B-l
                         INTRODUCTION


PURPOSE

To assess the quality of living conditions and services in emergency shelters for
homeless families.

BACKGROW

According toa U.S. Conference of Mayors repofiissued in December 1991, requests
byhomeless families foremergency shelter are increasing. Such requests increased by
an average of 17 percent in 1991 in 28 surveyed cities. Of the homeless population,
the report estimates that homeless families with children comprise 35 percent of the
total homeless population, with an average of 60 percent of the family members being
children.

Our study was requested by the Assistant Secretary for Planning and Evaluation,
representing the Secretary of the Department of Health and Human Services as a
member of The Interagency Council on the Homeless. It was undertaken to
determine first hand the quality of living conditions and availability of services in
emergency shelters which serve homeless families.

METHODOLOGY

We performed field work in eight cities. These were purposively selected to ensure
representation in our sample of cities both large and small and in various geographic
areas. The selection of cities was based on information from the Conference of
Mayors report, discussions with preinspection contacts, and other groups.

We went to two large metropolitan cities (Los Angeles and Chicago), four “medium-
sized” cities (Atlanta, Boston, Cleveland, and Minneapolis), and two smaller cities
(Little Rock and Louisville.) We conducted telephone interviews with city officials
responsible for programs for the homeless to obtain a profile of the city’s homeless
shelters, networking of homeless services, and whether or not the city had “Health
Care for the Homeless.”

We selected three family shelters in each city fkom a list provided by the local
homeless official or the local coalition for the homeless. We visited these shelters and
conducted interviews with each of their directors or responsible staff. We used an
observation checklist which we developed expressly for the purpose of assessing the
living conditions of each shelter. We also obtained a copy of shelter policies/rules.

We completed up to 10 interviews at each family shelter with families currently
receiving semices within the shelter. These families were selected randomly, based



                                            1

upon lists of families we received from the shelter director or case manager.   We
interviewed 172 heads of homeless families across the eight sampled cities.

Finally, we interviewed shelter directors, case workers, and coordinators of homeless
programs in each of the eight cities in order to gain their perspectives about the
availability of shelters for homeless families.

We conducted our review in accordance with the Interim Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                            2

                                FINDINGS


Our goal in presenting our findings is to provide, as we were requested, an accurate,

first hand account of life in the shelters for homeless families. We have tried to do so

as insightfully, completely, accurately, and vividly as possible. To achieve this, we

present our data in three separate forms.


First, in this section we give a synthesis of what we foun@ discussing topics that were

identified as being of interest to the Secretary of Health and Human Setices and his

staff. We then make recommendations on areas that we believe deserve attention by

those working to prevent, alleviate, and overcome hopelessness among families.


We recognize that several interpretations of our data are possl%le and that program

and policy analysts may have varied interests in what we found. Therefore, we have

attached tables and charts reflecting more precisely what kind of information we

gathered and from what sources.


Finally, we provide descriptions of the shelters we visited. We have dell%erately left

these in a somewhat “rough” form, very close to the notes we took while on site. Our

goal here is to ensure that we convey the flavor as well as the facts of what we saw

and heard.


SHELTER        ENVIRONMENT


Cleanliness


Based on our own observations, we found most shelters to be clean. However,

sanitation was a problem in some. In these few exceptions, rooms were dirty and

bathrooms were in disrepair.


S=@


Based on our observations, shelter security and safety in the neighborhood was

generally not a substantial problem. However, there were exceptions. Thirteen

percent of the shelter directors and twenty percent of families said they were

concerned with family safety. Eighteen percent of families had items stolen from them

at a shelter.



SHELTER        SERVICES


General Sew”ce Orientation


Generally, shelters provided more than just room and board.     Other services which

families are receiving in the shelters include:



                                            3
      Counseling
      Goal-setting
      Budgeting
      Parenting
      Co-dependency training and recognition
      Alcoholics Anonymous
      Drug rehabilitation program
      Graduate Equivalency Degrees
      Day care
      Local Head Start program
      “Reading is Fundamental” program
      Self-esteem classes
      Housing assistance
      Recreational programs for children
      Food pantry
      Clothes closet
      Personal hygiene items
      Follow-up                                     .

Only one or two shelters had all of these types of services. A few shelters generally
offered just bedding and a couple of meals a day. Some of those shelters did not offer
any additional services. If the resident wanted to look for an affordable apartment or
find a job, the resident was on her own. The resident’s motivation and initiative
determined the success of her endeavors.

Even when these services were offered in shelters, it was up to the resident to take
advantage of them.

Among the semices which were of special interest were the following:

Workshom/Classes

Seventy percent of families were participating in workshops or classes. These included
such areas as budgeting, parenting, drug rehabilitation, and counseling.

Case Mana~ement

Sixty percent of homeless families received case management. A homeless family
would meet with a counselor or social worker once weekly to go over problems, goals,
and housing.

Health Care

Emergency health care was available to all health care residents. Almost one-third of
the shelters have written medical emergency policies. The others have emergency
protocol which they follow, basically consisting of contacting emergency medical


                                            4
services or, for example, getting a van to transport a pregnant woman to a public
hospital. These remaining shelters did not have anything in writing in the rules hand-
out or in the office regarding medical emergencies.

We were informed that shelter staffers had current cardiopulmonary resuscitation
(CPR) certification in some of the shelters, and that staffers are trained in emergency
response techniques. If a crisis arose which warranted trained personnel, the staffers
would simply call emergency medical services.

Non-emergency health care was also available in 7 of 8 cities. There was a “Health
Care for the Homeless” program in 7 of the 8 cities.

Education

A school-age child’s education was not disrupted because he or she was in a homeless
family shelter. Most shelters were able to connect children with a local public school
within 48 hours of coming into the shelter.

Child Welfare

We did not find evidence of children being taken away from families while in the
shelter. A few shelters did have a referral system established with the local child
protective services bureau.

Dav Care

Only 6 of 24 shelters had access to a day care. Mothers were experiencing difficulties
when they were forced to take children along on job interviews and housing searches.


INCOME AND BENEl?I’lS

Most homeless families are already connected with public assistance services before
they arrive at the shelters. However, every shelter encouraged AFDC participation
and Food Stamps, and would help the families get hooked up with public assistance
services if they were not already receiving benefits. They counseled or required the
families to save the benefits in order to make a security deposit or rent payment in the
future.

Only one shelter would not let the families receive AFDC checks or Food Stamps
while staying in the shelter. Their justification for this was that the families were
receiving three cooked meals daily and were not being charged for lodging, so they did
not need those public assistance sefices while residing in the shelter. They did
encourage working with the local AFDC caseworker and arranging for assistance
benefits immediately upon dismissal from the shelter.



                                            5

Sixty-nine percent of the families were on AFDC and 77 percent were receiving Food
Stamps. Some ofthose notreceiting ~Chadapplied            for benefits and were
awaiting their first benefit check. Many others were not eligible for AFDC because of
employment of one or both parents or because of income from other sources like
Supplemental Security Income or Social Security.

Additional aspects of the accessibility of shelter families to AFDC are discussed in a
companion OIG report, “Homeless Families and Access to AFDC’ (OEI-05-91-00061).


FACI’ORS AFFECTING         HOMEIESSNESS

Reasons for Hopelessness

We asked the homeless families what event precipitated their current experience with
hopelessness. Following are the reasons which they gave:

              47 percent - problems with families

              36 percent - eviction

              18 percent - domestic violence

              17 percent - job loss

              (Some families had more than one reason for being homeless)


Drug Abuse

Shelter directors in 25 percent of the shelters said that most of their residents were
drug abusers. Our review team members were also told by some shelter residents of
drug use in or in the vicinity of some of the shelters.


AVAILABILITY       OF AND ACCESS TO SHELTERS

Availability of Shelters

Seven of eight city representatives of city homeless coalitions or mayor’s offices
indicated that there are not enough shelters in the city to satisfy the demands of
homeless families. Two-thirds of the shelter directors said that there are not enough
homeless shelters nor enough “emergency family” shelters. A couple of these directors
stated that there are sufficient shelters, but not enough for families. One director said
there are plenty of shelters, but vexy little affordable housing in the area.

Families are typically alerted to shelters by a homeless hot line, an AFDC caseworker,
a city commission/coalition, a former resident, or word-of-mouth. Other modes
through which families become aware of the availability of shelters include billboards,
United Way, police departments, Red Cross, and churches and community groups.



                                            6

Usually there is a central referral agency or hot line which tells families which shelters
have vacancies, and also which shelters they might qualify for admittance.

Referrals by county welfare workers are extremely common and were the main source
of referral in a couple of cities. In Boston, families are almost always referred through
their AFDC caseworker. Families experiencing hardships or tragedies might be
referred by the Red Cross or the police department.

Every city except Little Rock AR had a city coalition or a mayor’s office which
coordinated homeless assistance and outreach. In Little Roc& our contact was the
Salvation Army. They were able to inform us of all the shelters in that city. The LOS
Angeles mayor’s office has contracted with an outside entity to perform homeless
networking for the metro area.

Entrance and E1i~ibilitv Policies

Every shelter had published rules which they either (1) read aloud to the head of the
family, (2) handed out to the head of the family, (3) required the head of the family to
agree and sign the rules, or a combination of these three methods. All families were
aware of the rules.

Very few families are refused    admittance if there is a vacancy and the family qualifies.
However, in one city, certain   “at-risk” families were not accepted because the mother,
for example, had a history of   violence at other shelters or if a member of the family
was highly intoxicated or was   carrying dangerous weapons.

Less than five percent of the families themselves refused admittance to shelters. The
most common reason for a family to refuse admittance to a shelter is that they do not
want to split up family members if the shelter has a policy of not accepting teenage
and adult males. In rare circumstances, the family may refuse admittance if it does
not like the appearance of the shelter or feels that it is not suitable to house their
family. Very rarely, the family refuses because they do not want to perform chores or
follow rules.

Violations which warrant a family’s immediate dismissal include violence toward other
residents or staffers, intoxication, drug abuse, drug or weapon possession, and
unattended children. These rules were basically universal throughout all the cities,
w“th infractions in any of the areas warranting immediate dismissal. In some shelters,
three or four violations of other rules might accumulate to enough “warnings” that they
would be kicked out if they received more than three or four warnings in a month.
Probably the most abused rule or the subject of many “warnings” in the shelters was
missing the established curfew. Mothers or heads of families would typically be given
a “warning” for coming in late, regardless of their reason for being late.

When asked if families were allowed to re-enter the shelter if they have been released
because of a prior violation, two-thirds of the directors said the family could re-enter if


                                              7

circumstances were necessary to do this. Most of the shelter directors stated that re-
entry is handled on a case-by-case basis and that if the resident or family had a history
of violent behavior or noncompliance, they would not be allowed to re-enter. Only
two directors stated that the families would not be allowed to re-enter. Three family
shelters in one city claimed successful placement into permanent housing and that they
had experienced no recidivism.

Familv Se~aration

Two-thirds of the shelters separate from the rest of the family or deny admittance for
male children over 12 years old, husbands, and other adult male family members.
These policies caused family separation for 10 percent of shelter families. (The
percentage is relatively low because few homeless families in shelters included older
adult males.)

Eu!@iu
Funding sources include government, private, and charitable organizations. Less than
one-fifth of funding sources used to sponsor shelters and shelter activities was federal
dollars. Eighty-two percent of funding sources were non-federal. Two-thirds of the
shelters were funded largely by donations.




                                            8

                   RECOMMENDATIONS


Overall, the shelters we visited were effectively providing important services to
homeless families. However, some deficiencies need attention. Our results suggest
that State and local officials, shelter operators, homeless program coordinators, and
others wishing to improve shelters for homeless families should focus on:

       Ensuring cleanliness and security where they are lacking.

       Family shelters should not be dirty, unsanitary, or unsafe. Those few shelters
       that were not clean, or where safety was a problem, probably could have been
       clean or safe with greater attention by management and greater community
       support. Shelter managers and homeless program coordinators might want to
       visit other shelters themselves to get a sense of what can be done to overcome
       common problems of facility conditions.

       Arranging for day care to be provided to families with children who are
       attempting to find work while living in a shelter.

       Difficulty in obtaining suitable day care was the single most common service
       lacking in shelters. This provides a major impediment to families obtaining
       good employment and ensuring the safety and welfare of children while the
       parents are at work. Shelter directors and homeless family program
       coordinators need to pay particular attention to this area.

       Developing policies and effective practices to prevent f@     separations due to
       restricting admissions of older males.

       This is a complex problem for which we currently have no clear answer. There
       are obviously difficult and important tradeoffs here: the security risks inherent
       in allowing older males free access in shelters for homeless families and the
       need to prevent the separation of families. Additional research and insight are
       needed here.

At the federal level, the Interagency Council on Homeless could be instrumental in
providing information and technical assistance to those planning and running shelters
for homeless families in the areas we have identified. The Council could also promote
research on the topic of family separation in shelters.




                                            9

                APPENDIX                   A


TABULAR PRESENTATIONS         OF SHELTER    LIFE



Obsemations of Living Conditions
    A-2
Homeless Families’ Perspectives
     A-3
Shelter Directors’ Perspectives
     A-4
Demographics of Homeless Families
   A-5
Sources of Funding
                  A-6




                            A -1
 LIVING CONDITIONS IN EMERGENCY FAMILY SHELTERS
(REVIEW TEAM’S OBSERVATION OF SHELTER CONDITIONS)


                  manliness       security        Fire Safety       Bunk Beds/
                                                                       Crii


 SheL 1       I    Y          I    Y          I     N           I    None
 Shel. 2      IY              IY              IY                Ic
 SheL 3            Y               Y                Y                B, C
 SheL 4       I    YIN        I    Y          I Y               I B, Cl
 SheL 5       I    Y          I    Y]         I Y               I c
 Shel. 6      I    Y          I    Y1         IY                I    B, C
 She]. 7      I    Y          I    N          I     Y           I    B, C
 Shel. 8           Y               Y                Y                B, C
 Shel. 9           Y               N                Y                c
 She]. 10          Y               Y                Y                B, C
 SheL 11           Y/N             Y                Y                B, C
 She]. 12          Y               Y                Y                B, C
 Shel. 13          N               N                Y                C1
 Shel. 14          Y/N             Y                Y                B, C
 SheL 15      I N             I    N          I     Y           I    B
 SheL 16      I    Y          I    Y          I     Y           I    B, C
 She]. 17          Y               Y1               Y                B, C
 SheL 18           Y               Y                Y                c
 She]. 19          Y               Y1               Y                c
 SheL 20           Y               Y                Y                B, C*
 SheL 21           Y               Y                Y                B, C
 SheL 22           Y               Y                Y                B, C
 SheL 23           Y               Y                Y                B, C
 SheL 24           Y               Y                Y                B, C

Y1 = Exceptional security system             B = Bunk Beds            C = Cribs
C1= only one crib available

                                             A -2
   QUN1’l”Y OF SERVICES AS PERCEIVED               BY HOMELESS FAMILIES

       (INTERVIEWS      OF 172 HEADS OF HOMELESS FAMILIES)




 QUALITY OF FOOD?
                          I 78% liked: 22% disliked
 KITCHEN DUTY CHORES?
                      I 61% helDed out: 39% did not
 CLEANLINESS      OF FACILITY?
             I 96% clean: 4% unclean
 CONCERNED       W/FAMILY SAFETY?
          ] 20% concerned: 80% safety OK
 BATHINGflOILET        CLEANLINESS?
        ! 92% clean: 8% unclean
 REST ROOM ACCESSIBILITY?
                   27% own rest room; 73% share
 BABY BEDS/CRIBS?
                          \ 50% received baby beds/cribs
 BUNK BED ACCOMMODATIONS?
                  I 40% are sleeping on bunk beds
 LIKED PRIVACY OF FACILITY?
                I 68% liked; 32% disliked
 LIKED THE RULES?
                          \ 73% liked; 27% disliked rules
 HAD ITEMS STOLEN FROM THEM?
 I 18% yes; 82% no
 CLASS PARTICIPATION?
                      I 70% attended; 30% did not
 CASE MANAGEMENT?
                          I 60% received; 40% did not
 SUFFICIENT     SERVICES OFFERED?
          I 63% yes; 37% want additional SVCS*


“A few of the additional services suggested include:
      (in order of most requested)
              On-site Day care
              More housing assistance sefices
              On-site G.E.D. classes
              Baby sitting
              Parenting classes
              Bus tokens
              Personal counseling
              More leisure activities for children

              Job training

              Career counseling

              Increased privacy (e.g. private rooms)





                                          A -3

 SHELTER    DIRE~ORS       DISCUSS ASPECI’13 OF THEIR FAMILY SHELTERS

      (INTERVIEWS      OF 24 HOMELESS SHELTER DIRE~ORS)


 AVERAGE     CUT-OFF DAY?
 AVERAGE     LENGTH OF STAY?
 FAMILIES’ NEEDS BEING MET?
 CASE MANAGEMENT?                          79% ves: 21% no              II
 ADVISORY GROUP?                           969Z0yes; 4910no             II

 FAMILY SAFETY?                            13% concerned; 87% OK
 OCCUPANCY      CAPACITY?                  average is 49 beds
 PERSONAL VIOLATIONS”?                     58% yes; 42% none
 FAMILIES GET OWN ROOM?                    54% yes; 46% no
 DENY HUSBANDS/MALES?                      67% yes; 33940no
 DAY CARE AVAILABIIJIY?                    25% yes; 75% no
 % OF FAMILY RECIDMSM?                     average is 8%
 MAY RE-ENTER       IF KICKED OUT?         67910yes; 33% no
 FORMAL MEDICAL EMERGENCY                  29% yes; 71% no
 POLICY?
 FREE TRANSP. FOR MED EMERG?               79% yes; 21% no
 AFFILIATED     W/HOT LINE?                96% yes; 470 no
 JOB PLACEMENT       REFERRALS?            83% ves: 17% no
 REFER TO TRANSIT. SHELTER?                75% yes; 25% no              II
 REFER TO TRANSIT. HOUSING?                75% yes; 25% no              II
 HOOK UP FAMILIES W/WELFARE?               96% yes; 470 no              II

 SET GOALS W/FAMILY?                       96% yes; 4% no               II
“Violations of personal security include percentage of families
        involved in:
               Physical Violence/Attacks
               Serious Threats to their Well-being
               Thefts of Money, Food Stamps, or Personal Belongings




                                        A -4

  DEMOGRAPHICS        OF HOMELESS FAMILY SHELTER             POPULATION


          (STATISTICS PROVIDED     BY 172 HOMELESS FAMILIES)



AVERAGE    FAMILY?                     Mother with two children
HOMELESS    FOR HOW LONG?              6 1/2 months
FAMILIES STAYED BEFORE?                9%
STAYED (Q OTHER SHELTERS?              35%
HUSBAND/MALES      PROHIBITED?         10% of families split up in shelter
MED EMERGENCY        @ SHELTER?        24% experienced med.emerg.’s
HOW MANY FAMILIES EVICTED?             36%*
VICTIM/DOMESTIC      VIOLENCE?         18%0
EMPLOYED    BEFORE HOMELESS?           33%
LOST JOB, NOW HOMELESS?                17%*
QUJT JOB;MOVED?                        16%*
PROBLEMS W/RELATIVES?                  47%”
HAVE SOME FORM OF INCOME?              87%; e.g. employrnent,AFDC,SSI
FAMILIES RECEIVING       AFDC?         69%
FAMILIES RECV’G FOOD STAMPS?           77%


           �
           Respondents  could have more than one
                 reason for being homeless.




                                    A -5

             x                       —


             —

             x
             —
                 x                   —
                                                     T
                 x                   —   —
                                           x
             x   x                         x
                                         — —     —
                             r
         —     — x
             x x
             —
                                         x x
         —   —   —       x               x

         —
           x — *
             —
                                     x x
           x —
         — —
                     T—
                                       x
             x                                       x
             —x       —          —   —   —   —

             x +xx                   —
                                         x —
                                         —       —
to                                         x
             x     lx
     —
           x —
         — —
                    x —          —

     —
         x x —
         — —          —              —

         x x
           x          —              —   —       —

     —   —
           x .x :x                       x       x
                                                         I
           x x X1X                   —
                                                 x
           x       lx —          —   —   —   —   —

     —   —   —x x     x
                      —          —
                      x
                      —          .   —   —
                                             x
                                             —   —

     —   —   —x       —

         x    x
                    x                        —
                4
 APPENDIX              B

DESCRIPTIONS    OF SHELTERS   VISITED




               B-1
                     DESCRIPTIONS OF SHELTERS VISITED
                             (Notes from Field Visits)


Shelter 1 (which oDerated two facilities)

The first facility was a 4-plex with each family getting its own apartment. Shared
facilities inthebasement    hcluded awasher and dryer. The4-plex wasabout40        years
old, but the conditions were clean and pesticides were used twice monthly.

The second facility was an older home in a residential area. There was a couple that
lived there on the first floor that oversaw operations, visitors, repairs, etc. Families
were given their own rooms, and sometimes families would get two adjacent rooms.
Occupancy was about 14-15 people upstairs sharing a 2-shower facility. Also, a couple
of families could be housed downstairs. There was a large recreational room
downstairs and house phone. We noted lots of donated furniture, toys, and bedding.
(The average Length of Stay (LOS): 1-2 months.)

Shelter 2

This shelter was adjacent to a school. A small building, it housed residents on the top
two (2 of 3) floors. All shelter residents were single mothers. No husbands or
teenage males were allowed. They had recently initiated a counseling program for the
young children. This was a much-need undertaking, the director thought, and was
appearing to be successful. Just having someone listen to the kids was a priority of
this shelter. The building was old, and the furnishings were very old, but clean.
(Average LOS: 14 days.)

Shelter 3

This was the only shelter which would not allow receipt of AFDC or Food Stamps.
Families were informed that, since they receive 3 cooked meals a day, that they do not
require Food Stamps, and since they don’t have to pay to stay there, they don’t need
AFDC while staying in the shelter.

This shelter used to be a hotel. Residents were treated as “guests,” except they had to
leave their key at the front desk and pick it up when they recentered. They had a high
degree of privacy and were given a large amount of freedom. Each family got its own
room. Cribs could be wheeled in for the young children.

We heard from some residents that some families were selling or were on drugs.
There appeared to be very little monitoring of their needs, and few personal services
were offered. (Average LOS: 45 days.)




                                      B-2

Shelter 4

This wasadirty, very old building. Thedirector thought ithadbeen      alaw office in
the ‘20s. The shelter was in the older part of downtown. During both days which we
were there, at least 25-30 single men were loitering on the sidewalk outside the
shelter.

Three to four families shared a large room. There was only one bathroom with a
shower and a bathtub. The shower from the third floor (which housed single women
as well as mothers) was broken, and all the residents (nearly 40-50 persons were using
the same bathroom). There was a bathroom off the lobby downstairs which we
noticed, by obsemation, that many residents were using as they were coming and going
from the shelter.

There had been a tuberculosis outbreak a few weeks prior to our visit. Families here
did not appear to be motivated. Some had been there over six months or had been
bouncing from shelter to shelter in the city. (Average LOS: 45-90 days.)

Shelter 5

This shelter was renovated in December 1990. Formerly, it was a 3-story grammar
school. Affluent families in the area had each sponsored a “classroom.” Each
“classroom” was converted into a family living unit. Each family got their own private
bedroom. Teenage males were allowed inside the shelter, but had to lodge with their
parents or in adjoining rooms with their families.

This was a very clean, very “posh” facility. The staffers appeared highly organized, and
there were many part-time social workers (student interns in training) from the local
college. This was a poor neighborhood, and was unsafe in the surrounding streets.
However, the shelter itself was very secure, with camera-monitored entryway, and tight
security. You had to be beeped in. (Average LOS: 60-75 days.)

Shelter 6

This was a brand-new facility built only fifteen months earlier. It was like a small
roadside inn with 11 rooms for 8 families. (Large families were given 2 adjoining
rooms).

It was a very nice, quiet facility and very private for the families. However, we heard
complaints about the food kitchen across the street, which families must share with the
other shelters in the complex. (Average LOS: 4-12 months)

Shelter 7

This family shelter was once a nursing home. As such, the shelter had a sprinkler
system and fireproof doors on the bedrooms.   Locks were not on the doors because


                                     B-3
the director believed residents would start using, storing, and selling drugs. Therefore,
lack of privacy was an issue with some clients.

Two families were in one room, based on the number of kids in the family and shelter
occupancy. Large families had their own room. School-age kids were enrolled within
one day. Education was very important to this shelter director. Eight of the 10
intemiewed clients were working on their GED. (Average LOS: 7-14 days.)

Shelter 8

This shelter was a converted 100-year-old house between a school and a church and
was very clean and nicely renovated. The director was motivated to obtain all the
possible funding for the shelter. Funding sources included McKinney, FEW      State,
county, and donations. The shelter employed three licensed social workers.

The shelter had a fire alarm system, smoke alarms, and fire extinguishers. Every room
had bunk beds which, unlike bunk beds in other shelters, were very nice and had very
sturdy side rails on both sides of the upper bunks. Multiple families were in each
room, so privacy was an issue at this shelter.

Over half the mothers who resided in the shelter were currently on drugs. Because of
the extensive drug problem, the director started a drug rehabilitation program. The
curfew is 6 p.m. The director stated that they do not want the clients on the street
with the selling and use of drugs. (Average LOS: 20 days.)

Shelter 9

This shelter was in a 30-year-old, 2-story brick apartment building. The shelter was
very clean and consisted of 4 units with 4 beds per unit. The bedroom doors did not
have locks, but had smoke and fire alarms.

Funding for the shelter was 100 percent donations. The curfew was 6 p.m. and
residents were required to attend nightly bible classes. (Average LOS: 30 days.)

Shelter 10

This was a 2-story brick building built in the 1970’s. Families received their own
bedrooms, but they did have to share a communal shower/bathing facility down the
hall. The shelter was near several temporary blue-collar jobs, e.g., factories, milk,
construction companies which could employ the men while they were staying in the
shelter and looking for a full-time job and affordable housing. One family staying
there was situationally homeless because their car broke down on their way through
the city. They couldn’t afford to f~ the car.

There were many summer activities for the children. A self-esteem class for children
had recently been initiated. Local churches sponsored various programs for the


                                     B-4
family residents.   (Average LOS: 3 months.)

Shelter 11

This shelter’s operations were unique. Residents had to have two verifiable job

intetiews daily if they were not employed or were not enrolled in schooling. The

IBM corporation had donated 20 computers and a training facility for homeless

individuals who qualified. This 14-week training including computer software

applications, various job employment and administrative skills, resume writing, and

mock job intemiewing.


The IBM corporation had also donated 2 software packages which could eventually

bring a person with a 3rd-grade reading level up to a high school equivalent. These

software programs cost approximately $20,000 each (extremely sophisticated touch

screen, talk-back menus, and color-coded alphabets and stories). Also, the shelter

sponsored a small engine and appliance repair class if homeless individuals were

interested.


The shelter’s lodging, however, was of poor quality. Twenty men and 35 women and

children were in one large gymnasium/theater, separated only by a dry-wall partition.

Single men shared community living space and a kitchen with the families.

(Average LOS: 45-60 days).


Shelter 12


This shelter was basically for single men and single women. It only had three “family

rooms.” The family rooms were nice, however, and had their own rest room facility.

Bunk beds and cribs were available. This shelter had the community food kitchen and

the reputation for the best food in town. People start lining up at 4 p.m. for supper.

The meals are free to anyone, and neighborhood residents sometimes eat there, also.

The shelter had many community resources and volunteers. Most of the food and

most of the budget were contributed by large companies. (Average LOS: 2 months.)


Shelter 13


This facility was a firehouse in 1902. It was unclean; cockroaches were rampant. The

front and back doors were not latched; kids were walking out the back door

unattended. Everyone’s kids were sick and sharing flu viruses. Women and children

stayed in one large room on the second floor. This consisted of about 25 twin beds

and one baby crib shared by all. Young children had fallen off of twin beds. There

was no privacy whatsoever. When one child cried in the middle of the night, 40 other

persons were awakened. We also heard claims by residents that some of the mothers

were trading Food Stamps and AFDC dollars for drugs. We were informed by a

couple of residents that drugs were easily available across the street.

(Average LOS: 1 1/2 months.)




                                    B-5

Shelter 14

This was a 1912 mansion. It was huge (approx. 6,500 sq. ft.) Some of the rooms were
unclean, and nearly all of the rooms were untidy. About 10-15 families could stay in
this large house. Each family got its own room based on availability, and then there
was a large “dorm” room where a few mothers with children could be lodged.

They did have two social workers full-time who helped families set goals and look for
affordable housing. The family assessment and goal-setting program we were shown
appeared comprehensive. They also had a day care for children, but did not have
adequate staff to supemise. They were still accepting some children of formerly
homeless residents, if the parents could not afford other day care. There was a $10 a
night charge for each family to stay in this shelter. (Average LOS: 1 month.)

Shelter 15

This was a 1930’s school building connected to a church. This facility reeked of foul
odors. There were two components to the shelter: one for single and pregnant
women, the other for women with children. No men were allowed into the shelter.

The women with children shelter was one large room, with rows and rows of bunk
beds. (Probably about 15 women and 35 children were staying here). On the
perimeter of the large room were four or five classrooms which housed families
privately on a first-come-first-served basis. They were dirty, also, as was the rest of
the shelter. Residents were responsible for finding employment and housing on their
own. Little assistance was provided to the residents. (Average LOS: 4 months.)

Note: Shelten 16-18 have a full-time housing coordinator. Shelten 16-18 also have
 ‘~amily life advocates” width set goalr, pe~onn case management, and follow up on the
families after placement into housing.

Shelter 16

This shelter was built in 1941. It had been renovated in April of 1992. All-new
windows were ordered and fitted (due to health concerns with former lead windows),
the walls were painted, and brand new furniture was donated. It was a clean facility,
although it was untidy. We heard from staff that many residents had recently been
cited for not completing weekend cleaning chores. Four or five of the residents
refused to speak with us. Perhaps because, the staff felt, the residents were angry and
did not want to cooperate. (Average LOS: 5 months.)

Shelter 17

This was an attractive and clean facility for families. There were four bedrooms for
families - very private, with locks on the doors. Families were encouraged to be self-



                                     B-6

sufficient and cook their own meals. A part-time baby sitter would come in nightly

from 4pm to 7pm to watch the children while the mothers cooked and cleaned.


Shelter residents werevery positive in their responses. There were numerous social

and community activities available for the children. A Head Start worker even came

on-site to sign up children for Head Start program. This was a very secure facility.

One had to be buzzed in, and only families were allowed on the second floor.

(Average LOS: 5-6 months.)


Shelter 18


This was formerly a 1940’s brick house. It was a very well organized facility. The

director was past chair of a state homeless coalition and had been very instrumental in

various homeless programs and advocacy. Health Care for the Homeless would come

on-site whenever the director called to perform physicals and health screenings for

residents.


The director was also on the board of a neighborhood economic redevelopment group.

This group had just constructed a row of 15-20 town houses in an impoverished area.

Many of the families in this shelter were placed in these new town houses. Families

themselves were involved in their own advocacy, with mothers lobbying at the State

capitol, setting goals with AFDC caseworkers, and actively seeking permanent

employment. This shelter was trying to restore the dignity of the families who had lost

their jobs or had been kicked out of relatives’ homes. The director felt that many

homeless families were not dysfunctional, but rather had experienced various

hardships. (Average LOS: 5-12 months.)


Shelter 19


Seventy five years ago the shelter building was a hospital. We found the shelter was

clean considering the age of the building. We found the neighborhood to be very

dangerous as all the families told us of hearing gun shots almost every night from the

many street gangs in the area. Several windows and walls in the shelter have been

repaired because of stray bullets. This neighborhood was known for its drug abuse.


Each family had their own room with a lockable door. The families all reported that

they had privacy. This was a very secure facility. Every room had a smoke alarm and

we saw several fire extinguishers in the shelter. The shelter had two full-time case

managers and one full-time case manager for follow-up semices only. The shelter also

had MSW interns. Shelter staff were used as interpreters to complete several

interviews with non-English-speaking families. (Average LOS: 2 months.)


Shelter 20


This shelter was a medical clinic in 1926. Families had to share living quarters

including showers. The rooms did not have locks and all the interviewed families



                                    B-7
stated they did not have privacy at this shelter. Families reported that the shelter and

the rest rooms were clean because all participate in cleaning chores in the shelter. All

the families slept on bunk beds. The shelter director stated that infants and young

children were not allowed on the top bunk and slept with their mother on the lower

bunk. We found fire alarms and fire extinguishers in the shelter.

(Average LOS: 3 months.)


Shelter 21


This facility was a 50-year-old house. A mother and her children could stay at this

shelter for up to 60 days. The shelter had two full-time case managers. During their

stay, the families received room and board, clothing, if needed, and support services.

The shelter had support classes which include: financial assistance, budgeting,

parenting, and vocational counseling. The bedroom doors did not have locks. The

majority of clients stated they did not have privacy because they slept in rooms with

two or more families. The facility used both bunk beds and cribs for the mothers and

their children. We found smoke alarms and fire extinguishers in the shelter.


We found this shelter to be clean. The house rules required the residents to perform

daily chores as assigned including kitchen duty and cleaning the shelter and the rest

rooms. (Average LOS: 2 months.)


Shelter 22


This shelter, formerly a school, was used to house women with children and pregnant

teens. This was a dormitory setting with all mothers and children on bunk beds in one

large living area. The cut-off date was four months.


Many services, including parenting, budgeting, GED classes, preschool, alcohol/drug

rehabilitation, clothing, literacy programs, and computer classes, were offered. All the

mothers were on public assistance. Employment was encouraged, however, and a few

of the mothers were working. The director took a “tough-love” approach to helping

families because she was concerned about families becoming too dependent on shelter

services.


A unique feature of this shelter was that all staffers lived on-site. Also, the shelter was

a totally private, non-profit shelter funded by corporate donations, foundations,

churches, and honoraria and lectures presented by the director.

(Average LOS: 52 days.)


Shelter 23


This was an old factory building converted into a community center and homeless

shelter. The facility was very large and still undergoing renovation to make it a more

livable shelter. Many persons were coming and going all day because of the




                                      B-8

community center services (e.g. free meals, food baskets, clothing).   The shelter was

mainly funded by the city ($250,000 annually).


Each mother had a “sponsor” which set goals with them, counseled them, and helped

them towards self-sufficiency. This shelter provided free transportation, and the

director believed this was the shelter’s greatest asset. Other services offered include:

day care, moving assistance, furniture, “Health, Hygiene, and AIDS workshops;’ legal

assistance, Illinois child support caseworkers, recreational programs for children, Big

Brothers, house meetings, and a “Personal Enrichment” program.


The shelter was a dormitory setting, with all the mothers and children on the second

floor on bunk beds. Fifty-five persons were currently staying in this one, large room.

There was no air conditioning only four or five large fans. No teenage males or adult

males were permitted in the 2nd floor family living area. A few families had rejected

the shelter in the past year because they did not want their family split up. Another

handful of families rejected admittance because they did not like the appearance of

the shelter. (Average LOS: 3 months.)


Shelter 24


This was basically a gospel rescue mission which was originally established in 1877.

The current homeless shelter facility had been in existence the past 60 years. The

mission did not have a cut-off date, and would house families for many months if they

deemed it necessary. The shelter had 13 beds for mothers and a few cribs, The

director said that usually 7 or 8 families were housed at any one time.


Services provided include: Bible study (twice daily), GED classes, reading classes, flu

shots, drug abuse counseling, Accelerated Christian Education literacy program,

financial assistance, licensed psychiatrist once monthly, private physician 40 hours a

week, childhood immunizations, dentists twice weekly, parenting, aerobics class,

Weight Watchers, and Alcoholics Anonymous and its 12-step offshoots. All personal

items were provided, including bus tokens and infant formula to anyone coming off the

street as well.


The director said that most of the mothers were alcoholics and some were fourth-

generation welfare recipients who had been living on the streets. Therefore, the

director felt that the most beneficial semice they provide was getting homeless families

“spiritually introduced to the Lord.” All interviewees stated that they did not mind the

twice-daily religious classes and the mandatory evening worship services.

(Average LOS: 15-30 days.)





                                     B-9

